March 26, 2003
Audit Report No. 03-021


FDIC Examiner Use of Work Performed by
Independent Public Accountants (IPAs)
                                         TABLE OF CONTENTS

BACKGROUND ................................................................................................................2

     Statutory Requirements ..............................................................................................3
        Section 112 of FDICIA and Section 36 of the FDI Act...........................................3
        Sarbanes-Oxley Act of 2002....................................................................................6

     Independent Public Accountants................................................................................8
        Role and Standards ..................................................................................................8
        Limitations of Audits and Audited Financial Statements........................................8
        Interagency Policy Statement ................................................................................10
        External Audit Programs .......................................................................................10

     FDIC Examination Policy .........................................................................................11
       Risk-Focused Examination Process.......................................................................11
       Review of External Auditor Workpapers ..............................................................12
       FDIC Case Managers’ Interest in IPA Work.........................................................12
       Follow-Up Action or Change in Supervisory Strategy..........................................13
       FDIC as Insurer......................................................................................................14

RESULTS OF AUDIT.....................................................................................................15
CORPORATION COMMENTS AND OIG EVALUATION......................................15
ACRONYMS ....................................................................................................................16
GLOSSARY......................................................................................................................17
APPENDIX I:                 OBJECTIVE, SCOPE AND METHODOLOY .............................24
APPENDIX II:               EXAMINER AND CASE MANAGER
                           COMPLIANCE WITH FDIC POLICY.........................................26
                              Workpaper Reviews in Downgraded Institutions .......................26
                              Review of Part 363 Filings .........................................................27
                              Followup on Management Letters ..............................................28

APPENDIX III: Federal Deposit Insurance Act Section 36 – Early Identification
              of Needed Improvements in Financial Management for
              Institutions with More than $500 Million in Total Assets ............30

APPENDIX IV: CORPORATION COMMENTS.....................................................31

TABLES              Table 1: Part 363 Audit and Reporting Requirements.........................4

FIGURES             Figure 1: Number and Type of External Audit Programs
                              of FDIC-Supervised State Non-Member Banks ...................11
Federal Deposit Insurance Corporation                                                                     Office of Audits
Washington, D.C. 20434                                                                       Office of Inspector General

DATE:               March 26, 2003

TO:                 Michael J. Zamorski, Director
                    Division of Supervision and Consumer Protection




SUBJECT:            FDIC Examiner Use of Work Performed by Independent Public Accountants
                    (IPAs) (Audit Report No. 03-021)

This report presents the results of an Office of Inspector General (OIG) audit of the Federal
Deposit Insurance Corporation's (FDIC)1 examiner use of work performed by Independent
Public Accountants (IPAs) for financial institutions supervised by the FDIC’s Division of
Supervision and Consumer Protection (DSC).2 The overall objective of this audit was to
evaluate FDIC examiner use of the work performed by IPAs who are engaged by FDIC-
supervised financial institutions.3 In accomplishing this objective, we reviewed:

•    examination policies and procedures for evaluating the work of IPAs;

•    resolution of differences between regulators and IPAs on matters affecting the safety and
     soundness4 of an institution; and



1
 The Federal Deposit Insurance Corporation’s mission is to maintain the stability of and public confidence in the
nation's financial system. To achieve this goal, the FDIC was created in 1933 to insure deposits and promote safe
and sound banking practices.
2
 The FDIC’s Division of Supervision and Consumer Protection, in conjunction with other federal and state
regulatory agencies, examines financial institutions to ensure they are conducting business in compliance with
consumer protection rules and in a way that minimizes risk to their customers and to the deposit insurance funds.
There are five categories of examinations: Community Reinvestment Act, Compliance, Information Systems &
E-banking, Safety & Soundness, and Trust.
3
 The FDIC supervises more than 5,500 FDIC-insured state-chartered banks that are not members of the Federal
Reserve System, described as state non-member banks. This includes state-licensed insured branches of foreign
banks and state-chartered mutual savings banks. As supervisor, the FDIC performs safety and soundness
examinations of FDIC-supervised institutions to assess their overall financial condition, management practices and
policies, and compliance with applicable laws and regulations. Through the examination process, the FDIC also
assesses the adequacy of management and internal control systems to identify and control risks. Procedures
normally performed in completing this assessment may disclose the presence of fraud or insider abuse.
4
  Generally, an unsafe or unsound practice is any action or lack of action that is contrary to generally accepted
standards of prudent operation, the possible consequences of which, if continued, would be abnormal risk of loss or
damage to an institution, its shareholders, or the agencies administrating the insurance funds.
•   followup on IPA findings and recommendations.

Appendix I of this report discusses our objective, scope, and methodology in more detail.


BACKGROUND

As described in the Interagency Policy Statement on External Auditing Programs of Banks and
Savings Associations (Interagency Policy Statement), approved by the Federal Financial
Institutions Examination Council on August 19, 1999, the boards of directors and senior
managers of insured depository institutions5 are responsible for ensuring that an institution
operates in a safe and sound manner. To achieve this goal and meet the safety and soundness
guidelines implementing section 39 of the Federal Deposit Insurance Act (FDI Act), 12 U.S.C.
1831p-1, the institution should maintain effective systems and internal control to produce
reliable and accurate financial reports.

Accurate financial reporting is essential to an institution’s safety and soundness for numerous
reasons. First, accurate financial information enables management to effectively manage the
institution’s risks and make sound business decisions. In addition, FDIC-supervised institutions
are required by 12 U.S.C. 1817a to provide accurate and timely financial reports (e.g., Reports
of Condition and Income, also called Call Reports and Thrift Financial Reports)6 to the FDIC.
These reports serve an important role in the agency's risk-focused supervision7 programs by
contributing to examiners’ pre-examination planning, DSC’s off-site monitoring programs,8 and



5
 The term insured depository institution means any bank or savings association, the deposits of which are insured
by the FDIC.
6
 Call Reports from banks and Thrift Financial Reports from savings associations are sworn statements of financial
condition that are submitted to the FDIC quarterly in accordance with federal regulatory requirements. They consist
of a balance sheet, income statement, and other supplemental information and provide detailed analyses of balances
and related activity.
7
  The risk-focused examination process attempts to assess an institution's risk by evaluating its processes to identify,
measure, monitor, and control risk. The risk-focused examination process seeks to strike an appropriate balance
between evaluating the condition of an institution at a certain point in time and evaluating the soundness of the
institution's processes for managing risk.
8
  Bank supervisors use on-site and off-site surveillance to identify banks likely to fail. The most useful tool for
identifying problem institutions is on-site examination, in which the examiners travel to a bank and review all
aspects of its safety and soundness. On-site examination is, however, costly to supervisors because of its labor-
intensive nature and burdensome to bankers because of the intrusion into day-to-day operations. As a result,
supervisors also monitor a bank’s condition off-site. Off-site surveillance yields an ongoing picture of a bank’s
condition, enabling supervisors to schedule and plan exams efficiently. Off-site surveillance also provides banks
with incentives to maintain safety and soundness between on-site visits. The FDIC’s off-site monitoring systems
(Statistical CAMELS Offsite Rating (SCOR), Real Estate Stress Test (REST), and Quarterly Lending Alert) are
largely based on Call Report data.



                                                           2
examiners’ assessments of an institution’s capital adequacy9 and financial strength. Further,
reliable financial reports are necessary for the institution to raise capital. They provide data to
stockholders, depositors and other funds providers, borrowers, and potential investors on the
company’s financial position and results of operations. Such information is critical to effective
market discipline of the financial institution.


Statutory Requirements

Section 112 of FDICIA and Section 36 of the FDI Act: The Federal Deposit Insurance
Corporation Improvement Act (FDICIA) of 1991 added Section 36 to the Federal Deposit
Insurance Act (FDI Act), codified to 12 U.S.C. 1831m, and Part 363 of the FDIC Rules and
Regulations, codified to 12 C.F.R. Part 363, implements Section 36 of the FDI Act. FDICIA
contained accounting, corporate governance, and regulatory reforms designed to correct
weaknesses in the deposit insurance system. Among other measures, the FDICIA’s early
warning reforms provide for timely disclosure of internal control weaknesses. FDICIA also
established audit and reporting requirements for insured depository institutions with total assets
of $500 million or more and their independent public accountants. Section 36 of the FDI Act
provides additional improvements in financial management reporting. Appendix III shows the
reforms and key provisions of Section 36 of the Act.

Part 363 states that management of each financial institution covered by this regulation must:

•   engage an independent public accountant;
•   prepare annual financial statements in accordance with generally accepted accounting
    principles; and
•   produce annual management reports.

These annual management reports, referred to as management’s report or management’s
assertion, must contain a statement of management's responsibilities for preparing the financial
statements, establishing and maintaining an internal control structure and procedures for
financial reporting, and complying with laws and regulations relating to loans to insiders and
dividend restrictions. The reports must also contain an evaluation by management of the
effectiveness of the internal control structure and procedures for financial reporting, and an
assessment of the institution's compliance with designated laws and regulations.

The independent public accountant engaged by the institution is responsible for:

•   auditing and reporting on the institution's annual financial statements in accordance with
    generally accepted auditing standards and


9
  A financial institution is expected to maintain capital commensurate with the nature and extent of risks to the
institution and the ability of management to identify, measure, monitor, and control these risks. Capital adequacy,
as it relates to quarterly Call Reports, can be evaluated to a limited extent based on certain financial information that
includes amounts used in calculations of an institution's various regulatory capital amounts.



                                                           3
•       examining, attesting to, and reporting separately on the assertions of management concerning
        the institution's internal control structure and procedures for financial reporting.

Part 363 requires that insured depository institutions covered by this regulation submit reports
and notifications to the FDIC. Under Part 363, the board of directors of each insured depository
institution must also establish an independent audit committee. Table 1 summarizes the audit
and reporting requirements.

Table 1: Part 363 Audit and Reporting Requirements
    Insured Depository                  Audit Committee                          Reporting
    Institutions with Assets of:        Requirements                             Requirements
    Less than $500 million              None a                                   None a
                                        Committee must consist
                                        entirely of independent
    $500 million or more
                                        outside directors and may be             Annual report, including:
    up to $3 billion
                                        satisfied at holding company
                                        level.                                   •   Audited financial
                                        Committee must consist                       statements;
                                        entirely of independent                  • Audit report;
    $3 billion or more but              outside directors and:                   • Management report;
    less than $5 billion                • Include members with                       and
    • Regardless of CAMELS                  banking and related                  • Independent public
        ratings                             financial management                     accountant's report
                                            expertise;                               on the internal controls
                  and                   • Have access to its own                     over financial reporting.
                                            outside counsel, and                 Requirements may be
    $5 billion or more with             • Not include any large                  satisfied at the holding
    • CAMELS 1 or 2                         customers of the bank.               company level.
                                        Requirements may be satisfied
                                        at the holding company level.
                                                                                 Banks may submit holding
                                                                                 company audited financial
                                        Committee requirements same
    $5 billion or more with                                                      statements and audit report,
                                        as above, but must be satisfied
    • CAMELS 3, 4, or 5 b                                                        but all other reports listed
                                        at the bank level.
                                                                                 above must be prepared at
                                                                                 bank level.
    a
   The banking agencies continue to encourage all institutions, regardless of size, to have annual audits and to
   establish audit committees comprised of outside directors.
 b
   The appropriate federal banking agency may require an institution over $9 billion in total assets to report
   separately under section 36 if its exemption would create a significant risk to the insurance fund.
Source: FDIC Case Managers Procedures Manual




                                                          4
Part 363 requires that insured depository institutions covered by this regulation submit the
following reports and notifications to the FDIC, the appropriate federal banking agency, and the
appropriate state bank supervisor.

•    Within 90 days after fiscal year-end, an annual report must be filed. The annual report must
     contain audited annual financial statements, the independent public accountant's audit report,
     management's statements and assessments, and the independent public accountant's
     attestation concerning the institution's internal control structure10 and procedures for
     financial reporting.

•    Within 15 days after receipt, the institution must submit any management letter;11 the audit
     report and any qualification to the audit report;12 and any other report, including attestation
     reports, from the independent public accountant.

•    Within 15 days of occurrence, the institution must provide written notice of the engagement
     of an independent public accountant, the resignation or dismissal of a previously engaged
     accountant, and the reasons for such an event.

Part 363 also requires certain filings from independent public accountants. The accountants
must notify the FDIC and the appropriate federal banking supervisor when it ceases to be the
accountant for an insured depository institution. The notification must be in writing, be filed
within 15 days after the relationship is terminated, and contain the reasons for the termination.
The accountant must also file a peer review report13 with the FDIC within 15 days of receiving
the report or before commencing any audit under Part 363.

Each insured depository institution subject to Part 363 must establish an independent audit
committee of its board of directors. The members of this committee must be outside directors

10
  Internal control is an integral component of an organization’s management that provides reasonable assurance of
achieving effectiveness and efficiency of operations, reliability of financial reporting, and compliance with
applicable laws and regulations.
11
  Auditors are required to inform the audit committee (or its equivalent) about significant deficiencies in the design
or operation of the internal control structure that come to their attention in the course of an audit. These are referred
to as management letters.
12
   A qualified opinion states that, except for the effects of the matter to which the qualification relates, the financial
statements present fairly, in all material respects, the financial position, results of operations, and cash flows in
conformity with generally accepted accounting principles (GAAP). For more information on GAAP, see
footnote 16.
13
  Peer review is the process by which other accountants assess and test compliance with quality control systems for
the accounting and auditing practices of SEC Practice Section (SECPS) members. The objectives of peer review are
to determine whether the reviewed firm: (i) designed its system to meet Quality Control Standards established by
the American Institute of Certified Public Accountants (AICPA); (ii) complied with its quality control system to
provide reasonable assurance of complying with professional standards; and (iii) complied with SECPS membership
requirements. Upon the completion of a review, the peer reviewer prepares a report and a letter of comments, which
may recommend improvements to the firm's system of compliance.



                                                            5
who are independent of management. Their duties include overseeing the internal audit
function, selecting the external auditor, and reviewing with management and the external auditor
the scope of the audit, audit conclusions, and various management assertions and accountant
attestations.

Part 363 also establishes additional requirements for audit committees of insured depository
institutions with total assets of more than $3 billion. Two members of the audit committee must
have banking or related financial management expertise. Large customers of the institution are
excluded from the audit committee. The audit committee must also have access to its own
outside counsel.

Sarbanes-Oxley Act of 2002: President Bush signed the Sarbanes-Oxley Act of 2002,
P.L. 107-204, into law on July 30, 2002. This Act was in response to high profile accounting
and financial reporting scandals and has a significant impact on executives, accountants,
shareholders, and regulators. The Act significantly affects the regulation of accountants;
imposes new responsibilities and liabilities on chief executive officers (CEO), chief financial
officers (CFO), and Boards of Directors; and toughens criminal penalties, in terms of both fines
and prison sentences, for corporate fraud, destruction of documents, and impeding
investigations. The Act aims to restore investor confidence in the public markets and seeks to
prevent corporate and accounting fraud. Among other things, the Act:

•   establishes a new regulatory body to oversee public company auditors;
•   redefines the relationship between auditors and their clients;
•   places direct responsibility for the audit relationship on audit committees;
•   requires certification of periodic reports by CEOs and CFOs;
•   bans most loans by public companies to officers and directors;
•   restricts certain executive officer and director transactions;
•   holds the CEO and CFO responsible for restatements due to misconduct;
•   requires reporting of insider stock transactions within two business days;
•   imposes new obligations and responsibilities on audit committees;
•   imposes new rules of professional responsibility for lawyers and analysts; and
•   increases criminal penalties and enforcement measures for securities-related offenses.

The Act’s provisions become effective at different times, ranging from immediately upon
enactment to later dates specified in the Act or the date on which the required implementing
regulations become effective. The Act does not impose requirements with respect to public
companies switching audit firms periodically (though the Act requires that the U.S. Securities
and Exchange Commission (SEC) study this issue).




                                                6
Key provisions within the Sarbanes-Oxley Act that impact registered public accounting firms14
performing services required by Part 363 of FDIC’s Rules and Regulations for insured
depository institutions include:

•    Creating a Public Company Accounting Oversight Board to oversee the auditing of public
     companies. The Board will consist of five members appointed by the SEC and will register
     public accounting firms as well as establish the standards for audits of public companies. In
     addition, the Board will conduct inspections, investigations, and disciplinary hearings of
     public accounting firms, and have the power to impose sanctions on public accounting firms.

•    Prohibiting public accounting firms from performing specific services for their audit clients,
     including internal audit services and financial information systems design and
     implementation. The Act provides that auditors may engage in tax services or other services
     not specifically excluded if approved in advance by the Audit Committee. The Act requires
     that all non-audit services15 be pre-approved by the Audit Committee except for de minimus
     non-audit services. In addition to further approval by the Audit Committee of non-audit
     services, securities issuers are required to disclose to investors in their periodic reports the
     nature of such approval. The Act also requires that audit partners or reviewing audit partners
     cannot serve on the securities issuer’s account for more than 5 years. In addition, a
     company’s CEO, controller, CFO, chief accounting officer, or equivalent may not have been
     employed by the company’s auditors or participated in any capacity in the audit of the
     company during the 1-year period preceding the date of the initiation of the audit.

•    Under the Act, the Audit Committee must be composed solely of independent directors.
     Members of the Audit Committee cannot receive any consulting or other fees other than
     board or committee fees. Audit Committee members cannot be "affiliated persons of the
     company or a subsidiary." The Act disqualifies for Audit Committee membership a director
     who owns a controlling interest in the company.

     The Audit Committee, under the Act, is responsible for appointment, compensation, and
     oversight of the public accounting firm. Significantly, the Audit Committee is now charged
     with resolving any disagreements between management and the independent accounting
     firm. The Act requires that the Audit Committee establish a complaints procedure for
     receipt, retention, and treatment of complaints regarding accounting, internal accounting
     control or auditing. The Audit Committee is specifically authorized to engage independent
     counsel and other advisors.

14
   The term “registered public accounting firm” means a public accounting firm registered with the Public Company
Accounting Oversight Board in accordance with the Sarbanes-Oxley Act of 2002. The term “public accounting
firm” means a proprietorship, partnership, incorporated association, corporation, limited liability company, limited
liability partnership, or other legal entity that is engaged in the practice of public accounting or preparing or issuing
audit reports; and to the extent so designated by the rules of the Board, any associated person of any such entity.
15
  Non-audit services, according to the Sarbanes-Oxley Act of 2002, are any professional services provided to a
securities issuer by a registered public accounting firm, other than those provided to an issuer in connection with an
audit or a review of the financial statements of an issuer.



                                                            7
Independent Public Accountants

Role and Standards: Financial statements are often audited by an IPA for the purpose of
opining on the fair presentation of an entity’s financial statements. The IPA’s standard report
states that the financial statements present fairly, in all material respects, an entity’s financial
position, results of operations, and cash flows in conformity with GAAP.16 This conclusion may
be expressed only when the independent accountant has formed such an opinion on the basis of
an audit performed in accordance with generally accepted auditing standards (GAAS).17 An IPA
is defined18 as an accountant who is independent of a financial institution and registered or
licensed to practice, and holds himself or herself out, as a public accountant, and who is in good
standing under the laws of the state or other political subdivision of the United States in which
the home office of the institution is located. Prior to the implementation of the Sarbanes-Oxley
Act of 2002, an IPA had to comply with the AICPA Code of Professional Conduct and any
related guidance.

Limitations of Audits and Audited Financial Statements: According to the Federal Reserve
Board’s Commercial Bank Examination Manual, although auditing standards are designed to
require the use of due care and objectivity, a properly designed and executed audit does not
necessarily guarantee that all misstatements of amounts or omissions of disclosure in the financial
statements have been detected, nor does a properly designed and executed audit guarantee that the
auditor addressed safety and soundness considerations. The following examples from this
manual illustrate some common limitations of audits:

•    The auditor is not responsible for deciding whether an institution operates wisely. An
     unqualified audit report means that the institution reports transactions and balances in
     accordance with GAAP. It does not mean that the transactions make business sense, the
     associated risks are managed in a safe and sound manner, or balances can be recovered upon
     disposition or liquidation.

•    The auditor’s report concerning financial statements does not signify that underwriting

16
   Generally Accepted Accounting Principles (GAAP) is the body of principles governing the accounting for
financial transactions and preparation of financial statements. GAAP is derived from guidance issued by the
Financial Accounting Standards Board (FASB) and the AICPA in the form of Accounting Research Bulletins
(ARB), Accounting Principles Board (APB) Opinions, FASB Statements of Financial Accounting Standards
(SFAS), and FASB Statements of Financial Accounting Concepts (SFAC).
17
   Generally Accepted Auditing Standards (GAAS) are policies, guidelines, and procedures set forth by the AICPA
that an auditor is required to follow in performing an audit in order to render an opinion on an organization's
financial statements.
18
  Enactment of the Sarbanes-Oxley Act of 2002, changed the term used to describe accountants in the SEC Act of
1934. Section 10A of the Securities Exchange Act of 1934 (15 U.S.C. 78j-1) was amended by the Sarbanes-Oxley
Act of 2002 by striking “an independent public accountant” each place that term appears and inserting “a registered
public accounting firm.”



                                                         8
     standards, operating strategies, loan-monitoring systems, and workout procedures are
     adequate to mitigate losses if the environment changes. The auditor’s report that financial
     statements present fairly the bank’s financial position is based upon the prevailing evidence
     and current environment, and indicates that reported assets can be recovered in the normal
     course of business. In determining that reported assets can be recovered in the normal course
     of business, the auditor attempts to understand financial-reporting internal controls and can
     substitute other audit procedures when these controls are weak or nonexistent.

•    The quality of management and how it manages risk are not considered in determining
     historical cost and its recoverability. Although certain assets and instruments are marked to
     market19 (for example, trading accounts), GAAP generally uses historical cost as the basis of
     presentation. Historical cost assumes that the entity is a going concern. The going-concern
     concept allows certain marked-to-market losses to be deferred because management believes
     the cost basis can be recovered during the remaining life of the asset.

•    GAAP financial statements offer only limited disclosures of risks and uncertainties, and
     other safety and soundness factors on which an institution’s viability depends.

•    For purposes of determining the level of loan-loss reserves, GAAP does not consider losses
     that are ‘‘more likely than not,’’ ‘‘reasonably possible,’’ or ‘‘likely’’ to occur in future
     periods. Under GAAP, loan-loss reserves are only provided for ‘‘probable losses’’ and for
     losses currently ‘‘inherent’’ (that is, anticipated future charge-offs based on current
     repayment characteristics) in the portfolio.




19
  According to FDIC Regional Directors Memorandum 98-059, issued July 9, 1998, New Examination Guidance
and Procedures for Securities and Derivatives Activities, the term “marked-to-market” is the valuation of a security,
such as a bond, share, or futures contract, according to current market prices. These instruments are marked-to-
market at the end of each trading day, or on an intra-day basis, by the exchange clearinghouse. Position value
changes are settled on a cash basis at least daily.




                                                          9
Interagency Policy Statement: Before August 1999, the FDIC and the other bank regulatory
agencies that are members of the Federal Financial Institutions Examination Council (FFIEC)20
generally believed that an independent external audit provided reasonable assurance that an
institution’s financial statements were prepared in accordance with GAAP. The independent
audit process also subjected the internal controls and the accounting policies, procedures, and
records of each banking organization to periodic review. Accordingly, the banking agencies
recommended that every institution have an external auditing program to help ensure accurate
and reliable financial reporting.21

External Audit Programs: On August 19, 1999, the FFIEC approved and recommended the
Interagency Policy Statement on External Auditing Programs of Banks and Savings Associations
which was subsequently approved and became effective for fiscal years beginning on or after
January 1, 2000.22

The Interagency Policy Statement states that to help ensure accurate and reliable financial
reporting, the FFIEC agencies recommend that the board of directors of each institution establish
and maintain an external auditing program. Although many insured depository institutions with
total assets below a $500 million threshold are not subject to the requirements of Section 36 of
the FDI Act, the Interagency Policy Statement encourages these institutions to adopt its
guidance.

The Interagency Policy Statement also states that an external auditing program should be an
important component of an institution's overall risk management process. For example, an
external auditing program complements the internal auditing function of an institution by
providing management and the board of directors with an independent and objective view of the
reliability of the institution's financial statements and the adequacy of its control over financial
reporting. Additionally, an effective external auditing program contributes to the efficiency of
the agencies' risk-focused examination process. By considering the significant risk areas of an
institution, an effective external auditing program may reduce the examination time the agencies
spend in such areas. Moreover, it can improve the safety and soundness of an institution
substantially and lessen the risk that the institution poses to the insurance funds administered by
the FDIC.


The federal banking agencies view a full-scope annual audit of a bank’s financial statements by

20
  The Federal Financial Institutions Examination Council (FFIEC), is comprised of the Board of Governors of the
Federal Reserve System (FRB), the FDIC, the National Credit Union Administration (NCUA), the Office of the
Comptroller of the Currency (OCC), and the Office of Thrift Supervision (OTS).
21
  The FDIC first adopted guidance on external auditing programs in its Policy Statement Regarding Independent
External Auditing Programs of State Nonmember Banks in 1988 (53 FR 47871, November 28, 1988). In 1996, the
FDIC reviewed the Current Policy Statement pursuant to section 303(a) of the Riegle Community Development and
Regulatory Improvement Act of 1994 and adopted several amendments to eliminate inconsistencies and outdated
requirements (61 FR 32438, June 24, 1996).
22
     The NCUA, also a member of the FFIEC, did not adopt the policy at that time.



                                                         10
an independent public accountant as preferable to other types of external auditing programs. The
Interagency Policy Statement adopted by the regulatory agencies on or after January 2000
recognizes that a full-scope audit may not be feasible for every small bank. It therefore
encourages those banks to pursue appropriate alternatives to a full-scope audit in cases where a
full scope audit is not performed. These alternatives, which must be performed by an
independent public accountant, are (1) an attestation on internal control over financial reporting
on certain schedules of the Reports of Condition and Income (Call Report) or (2) an audit of the
institution's balance sheet. The Interagency Policy Statement further indicates that, for a smaller
institution with less complex operations, the attestation on internal control
may be less costly than an audit         Figure 1: Number and Type of External Audit Programs
of its financial statements or its                of FDIC-Supervised State Non-Member Banks
balance sheet and may provide more
useful information to                       3,500
management. Small banks are                   Number of Institutions
                                            3,000                         Banks with total assets
also encouraged to establish an                       323                 of $500 million or more
audit committee consisting of               2,500
                                                                          Banks with total assets
outside directors.                          2,000                         less than $500 million

                                                                       1,500
Each year's March 31 Call                                                            2,683
Report requires an institution to                                      1,000
                                                                                                                  1,483
report the type of its external                                         500
auditing program for the prior                                                                        103
                                                                                                                             336
                                                                          0
year. Figure 1 shows the type                                                       Financial      Attestation   Balance     No
of external auditing program                                                        Statement                     Sheet    External
                                                                                      Audit                       Audit     Audit
and number of FDIC-
supervised banks reporting.23                                                                   Type of External Audit
                                               Source: FDIC, DSC Policy Branch - Accounting Section.

FDIC Examination Policy

Risk-Focused Examination Process: On October 1, 1997, the FDIC, in conjunction with the
Federal Reserve and the Conference of State Bank Supervisors, began implementing a new
risk-focused examination process designed to focus bank examinations on bank functions that
pose the greatest risk exposure. This new examination process represents a change from the
traditional approach, with its heavy emphasis on predetermined tasks and a review of large
samples of loans.

The risk-focused examination process attempts to assess an institution’s risk by evaluating its
processes to identify, measure, monitor, and control risk. If management controls are properly
designed and effectively applied, they should help ensure that satisfactory performance is
achieved. In a rapidly changing environment, a bank’s condition at any given point in time may
not be indicative of its future performance. The risk-focused examination process seeks to strike
an appropriate balance between evaluating the condition of an institution at a certain point in
23
  Figure 1 includes only FDIC-supervised state non-member banks as of December 31, 2001. It does not include
574 other FDIC-supervised institutions, such as state-chartered savings banks and U.S. branches of foreign banks.



                                                                               11
time and evaluating the soundness of the institution’s processes for managing risk. Moreover,
the risk-focused approach attempts to involve less regulatory burden by focusing on testing,
rather than duplicating, the work of audit and control functions. Based on the institution’s size,
complexity, and risk profile, an examiner can choose to test, evaluate, and accept the results
from such controls as internal and external audits, loan policy, loan review, and loan grading
systems.

Review of External Auditor Workpapers: When an institution has an external auditing
program, examiners should be able to review the auditors’ workpapers as appropriate. Under
§ 36(g)(3)(A)(i) of the FDI Act, the audit services for institutions covered by Part 363 must be
performed by an accountant who has agreed to provide examiners with access to the audit
workpapers and the accountant’s policies and procedures, if requested. If holding company
financial statements or a holding company attestation report on internal control over financial
reporting has been submitted to the FDIC on behalf of a subsidiary institution that is subject to
Part 363, the examiner of the subsidiary institution may examine the workpapers of the holding
company audit or attestation.

Through the auditors’ workpapers, the examiner can review the external auditor’s evaluation of
internal controls, assessment of audit risk in the institution (including risk of material
misstatement of the financial statements due to fraud), significant account balances and
transactions, and other audit areas pertinent to the examination. A workpaper review is
recommended in those circumstances where it will provide the examiner a better understanding
of one or more areas of the bank’s operations and the bases for some of the auditor’s evaluations
in those areas. Thus, a review can be another source of information about the bank’s internal
control and financial reporting practices and about the work that the auditor has performed in
specific audit areas of the bank’s operations or activities. The review may help determine the
scope of the examination procedures that should be carried out. The review can identify those
areas where the independent public accountant performed audit work sufficient to enable the
examiners to limit their procedures, and those areas of higher risk for which examination
procedures should be expanded. However, the sufficiency and appropriateness of the external
auditor’s procedures may be different from the procedures the examiner would perform during
an examination. Reviewing audit workpapers may also acquaint an examiner assigned to an
institution for the first time with what the auditor considers to be significant audit and internal
control risks in that institution.

FDIC Case Managers’ Interest in IPA Work: The primary goal of the case manager program
is to significantly enhance risk assessment and supervision activities by assigning responsibility
and accountability for a caseload of institutions or companies to one individual, regardless of
charter and location, and by encouraging a more proactive, but non-intrusive, coordinated
supervisory approach. Case managers are involved in efforts designed to meet the FDIC's offsite
monitoring and analysis goals as they relate to the assessment of risk to the deposit insurance
funds, as well as the financial condition of the individual institutions within their caseloads. In
that regard, they will analyze financial and other information filed or reported in accordance with
regulatory requirements, as well as information from other sources. Case managers
communicate and coordinate with regional specialists on substantive issues regarding institutions
within their caseloads to ensure that risks presented by certain specialty areas, such as


                                                12
accounting, are identified and quantified, and to ensure that proper supervisory action is taken to
minimize risk to the deposit insurance funds.

The case manager is responsible for review of annual Part 363 filings from covered and
associated institutions in their caseloads. Case managers review an institution's annual Part 363
filing to ensure that it includes all of the required documents. In reviewing an institution's
annual Part 363 filing, the case manager is responsible for obtaining the annual Part 363 filing
and worksheet for the prior year to see if there were any issues noted. Finally, the case manager
reviews the current year’s filing and completes the appropriate worksheet. The review concludes
with the need to make a determination as to whether a change in supervisory strategy or follow-
up action is needed. A worksheet is used to record the review of the annual Part 363 filing and is
known as a Part 363 Annual Report Worksheet.

If an institution has been assigned a composite CAMELS24 rating of 4 or 5 or its annual report
reveals significant concerns about matters that would have fallen within the scope of the work
performed by the bank's external auditors, the case manager consults with the regional
accountant. Together they determine when a review of the workpapers of the independent public
accountant performing the external audit of the institution for the previous year will be
performed.

Another worksheet known as a Periodic Reports Worksheet is used to document the review of
any other reports submitted by either the financial institution or the public accountant. These
reports include, but are not limited to: any management letter issued by the IPA; written notice
of the engagement, resignation or dismissal of an IPA by an institution and the reasons for such
an event; or, written notice from the IPA that it has ceased to be the accountant for an institution
and the reasons for the termination.

Some institutions also submit a management letter with the annual report documents. The
management letter is addressed to the board or audit committee. It details internal control
weaknesses that were not considered reportable conditions or sufficiently material to include in
the audit report. If a management letter has been submitted, the case manager should review the
submission and complete a Part 363 Periodic Report Worksheet. The review should conclude
with a determination as to whether a change in supervisory strategy, follow-up action, or review
of the auditor's workpapers are needed.

Follow-Up Action or Change in Supervisory Strategy: If it is determined that follow-up
action or a change in supervisory strategy is warranted for a state non-member bank, case
24
   Financial institution regulators use the Uniform Financial Institutions Rating System to evaluate a bank's
performance. Six areas of performance are evaluated and given a numerical rating of "1" through "5," with "1"
representing the least degree of concern and "5" the greatest degree of concern. The six performance areas identified
by the CAMELS acronym are: Capital adequacy, Asset quality, Management practices, Earnings performance,
Liquidity position, and Sensitivity to market risk. A composite CAMELS rating is an overall rating given to a bank
based on the six components of the CAMELS rating. A rating of "1" through "5" is given. A rating of "1" indicates
strong performance; "2" reflects satisfactory performance; "3" represents below-average performance; "4" refers to
marginal performance that could threaten the viability of the institution; and, "5" is considered critical,
unsatisfactory performance that threatens the viability of the institution.



                                                         13
managers should discuss the concerns with the field office supervisor, determine the appropriate
supervisory strategy to address these concerns, and prepare a memorandum outlining the
recommended course of action. Thus, a case manager's primary interest in an IPA's work is
focused on the FDIC's role as a supervisor and an insurer.

If, in the case manager's judgment, an IPA product contains negative information that may be
severe enough to warrant concern over the safety and soundness of the institution, the case
manager should discuss the concerns with the field office supervisor. Together they should
determine the appropriate supervisory strategy to address these concerns and prepare a
memorandum outlining the recommended course of action.

FDIC as Insurer: As insurer, the FDIC continually evaluates how changes in the economy,
financial markets, banking system, and individual financial institutions affect the adequacy and
viability of the deposit insurance funds. To protect the insurance funds, the FDIC identifies risks
by analyzing economic, financial, and banking trends, as well as IPA work products, and
communicates these findings to the industry and the other federal banking agencies and state
authorities. As the insurer, the FDIC, by statute, has special insurance authority for all insured
depository institutions. Should the FDIC identify significant emerging risks or have serious
concerns raised in IPA work about any insured depository institution not primarily supervised by
the FDIC, the FDIC and the institution's primary federal supervisor25 work together to address
them.

As a supervisor, the FDIC is the primary federal banking regulator of all state non-member
banks. In that regard, the FDIC performs safety and soundness examinations, visitations, and
investigations of FDIC-supervised institutions to assess their overall financial condition,
management practices and policies, and compliance with applicable laws and regulations.
Through the examination process, the FDIC also assesses the adequacy of management and
internal control systems to identify and control risks. An IPA's work may complement an
institution's internal audit function by providing another independent and objective view of the
reliability of the institution's financial statements and the adequacy of its financial reporting
internal controls. Procedures normally performed in completing this assessment may disclose
the presence of fraud or insider abuse.




25
  The institution’s charter determines which federal banking agency is the “primary federal supervisor” of the
particular institution.


                                                        14
RESULTS OF AUDIT

FDIC examiners made reasonable use of the work performed by IPAs. For those institutions
with CAMELS ratings of 1, 2, or 3, FDIC examiners and case managers considered IPA reports,
management letters, and other available documentation in conjunction with their safety and
soundness examinations and in devising the overall supervisory strategy. FDIC examiners
expanded their examination testing and review when an IPA uncovered or reported irregularities
or problems in an area and the examiners followed up on the institution’s corrective actions.
Examiners also effectively resolved differences with IPAs. In addition to the above, for poorly
rated institutions – those with CAMELS ratings of 4 or 5 – examiners reviewed the IPA’s
workpapers, thoroughly documenting their review. FDIC examiners reviewed IPA workpapers
to gain an understanding of the IPA's scope and results of work performed including, for
example, in the areas of internal control, the risk of material misstatement due to fraud, or asset
valuation concerns.

In general, the FDIC has established sound examination policies and procedures for evaluating
the effectiveness of a financial institution’s external audit program. While the FDIC’s risk-
focused examination policy, as stated in Regional Directors Memorandums 1998-100, dated
December 16, 1998 and 1999-011, dated March 23, 1999, could be interpreted to require testing
of IPA work in order to reduce the scope of examinations, such testing would only be possible
by reviewing the IPA’s workpapers. However, we do not consider routinely reviewing the IPA’s
workpapers to be necessary or practical for all examinations of better-rated institutions. The
FDIC’s approach of deciding on a case-by-case basis whether to review the work of IPAs on
examinations of
better-rated institutions provides appropriate balance between risk and use of examination
resources.

Appendix II discusses the detailed results of our audit, including three instances of
noncompliance with FDIC policy and procedures. These were deemed insignificant.

CORPORATION COMMENTS AND OIG EVALUATION

On March 20, 2003, the Director, DSC, provided a written response to the draft report, although
the report did not contain recommendations. The response is presented in Appendix IV of this
report. The Director of DSC stated the Division would continue to be proactive in addressing
their evaluations of external audit activity through their own efforts and through interagency
initiatives.




                                                15
                                          ACRONYMS


AICPA      American Institute of Certified Public Accountants

CAMELS Ratings for Capital adequacy, Asset quality, Management practices, Earnings
       performance, Liquidity position, and Sensitivity to market risk.

CEO        Chief Executive Officer

CFO        Chief Financial Officer

DSC        Division of Supervision and Consumer Protection (formerly the Division of
           Supervision)

FDI Act    Federal Deposit Insurance Act

FDIC       Federal Deposit Insurance Corporation

FDICIA     Federal Deposit Insurance Corporation Improvement Act of 1991

FFIEC      Federal Financial Institutions Examination Council

FRB        Federal Reserve Board (Board of Governors of the Federal Reserve System)

GAAP       Generally Accepted Accounting Principles

GAAS       Generally Accepted Auditing Standards

IPA        Independent Public Accountant

NCUA       National Credit Union Association

OCC        Office of the Comptroller of the Currency

OIG        Office of Inspector General

OTS        Office of Thrift Supervision

SEC        U.S. Securities and Exchange Commission

TFR        Thrift Financial Report




                                               16
                                   GLOSSARY

           Term                                        Definition

                          Call Reports from banks and Thrift Financial Reports from savings
                          associations are sworn statements of financial condition that are
Call Report or            submitted to FDIC quarterly in accordance with federal regulatory
Thrift Financial Report   requirements. They consist of a balance sheet, income statement,
                          and other supplemental information and provide detailed analyses of
                          balances and related activity.


                          Financial institution regulators use the Uniform Financial
                          Institutions Rating System (UFIRS) to evaluate a bank's
                          performance. Six areas of performance are evaluated and given a
                          numerical rating of 1 through 5, with 1 representing the least degree
                          of concern and 5 the greatest degree of concern. The six performance
                          areas identified by the CAMELS acronym are

                          •   Capital adequacy,
                          •   Asset quality,
                          •   Management practices,
CAMELS Rating and
                          •   Earnings performance,
Composite CAMELS Rating
                          •   Liquidity position, and
                          •   Sensitivity to market risk.

                          A composite CAMELS rating is an overall rating given to a bank
                          based on the six components of the CAMELS rating. A rating of 1
                          through 5 is given. A rating of 1 indicates strong performance; 2
                          reflects satisfactory performance; 3 represents below average
                          performance; 4 refers to marginal performance that could threaten
                          the viability of the institution; and 5 is considered critical,
                          unsatisfactory performance that threatens the viability of the
                          institution.




                                           17
                                        GLOSSARY

           Term                                             Definition

                              A financial institution is expected to maintain capital commensurate
                              with the nature and extent of risks to the institution and the ability of
                              management to identify, measure, monitor, and control these risks.
                              Capital adequacy, as it relates to quarterly Call Reports, can be evaluated
                              to a limited extent based on certain financial information that includes
                              amounts used in calculations of an institution's various regulatory capital
Capital Adequacy
                              amounts.

                              Part 325 of the FDIC Rules and Regulations, 12 C.F.R. §325.101, et.
                              seq, implements section 38 of the FDI Act, 12 U.S.C. §1831(o), by
                              establishing a framework for taking prompt supervisory actions against
                              insured non-member banks that are not adequately capitalized.


                              Effective July 1, 2002, the FDIC’s Division of Supervision and the
                              Division of Compliance and Consumer Affairs were merged to form
                              the new Division of Supervision and Consumer Protection (DSC).
                              The DSC promotes the safety and soundness of FDIC-supervised
                              institutions, protects consumers’ rights, and promotes community
                              investment initiatives by FDIC-supervised insured depository
                              institutions.

Division of Supervision and   The mission of FDIC’s Division of Supervision and Consumer
Consumer Protection (DSC)     Protection (DSC) is to promote stability and public confidence in the
                              nation's financial system by:

                              •   examining and supervising insured financial institutions to
                                  ensure they operate in a safe and sound manner, consumers'
                                  rights are protected, and FDIC-supervised institutions invest in
                                  their communities, and
                              •   providing timely and accurate deposit insurance information to
                                  financial institutions and the public.


                              The FDIC, in conjunction with other federal and state regulatory
                              agencies, examines financial institutions to ensure they are conducting
                              business in compliance with consumer protection rules and in a way that
Examination Function          minimizes risk to their customers and to the deposit insurance funds.
                              There are five categories of examinations: Community Reinvestment
                              Act, Compliance, Information Systems & E-banking, Safety &
                              Soundness, and Trust.




                                                18
                                      GLOSSARY

           Term                                          Definition

                            The FDIC’s Supervision Program promotes the safety and soundness
                            of FDIC-supervised institutions, protects consumers’ rights, and
                            promotes community investment initiatives by FDIC-supervised
                            insured depository institutions.

                            As supervisor, the FDIC performs safety and soundness
                            examinations of FDIC-supervised institutions to assess their overall
                            financial condition, management practices and policies, and
                            compliance with applicable laws and regulations. Through the
                            examination process, the FDIC also assesses the adequacy of
                            management and internal control systems to identify and control
                            risks. Procedures normally performed in completing this assessment
FDIC Supervision Program    may disclose the presence of fraud or insider abuse.

                            The FDIC supervises FDIC-insured state-chartered banks that are
                            not members of the Federal Reserve System, described as state
                            non-member banks. This includes state-licensed insured branches of
                            foreign banks and state-chartered mutual savings banks. The FDIC
                            also has examination authority and special insurance activity
                            authority for state member banks that are supervised by the Board of
                            Governors of the Federal Reserve System (FRB), national banks that
                            are supervised by the Office of the Comptroller of the Currency
                            (OCC), and savings associations that are supervised by the Office of
                            Thrift Supervision (OTS). This authority is exercised in the FDIC’s
                            role as insurer of those institutions.


                            The Federal Deposit Insurance Corporation’s mission is to maintain the
Federal Deposit Insurance   stability of and public confidence in the nation's financial system. To
Corporation (FDIC)          achieve this goal, the FDIC was created in 1933 to insure deposits and
                            promote safe and sound banking practices.


                            The Federal Financial Institutions Examination Council (FFIEC) is a
                            formal interagency body empowered to prescribe uniform principles,
                            standards, and report forms for the federal examination of financial
Federal Financial
                            institutions by the FRB, FDIC, the National Credit Union
Institutions Examination
                            Administration (NCUA), OCC, and OTS and to make
Council (FFIEC)
                            recommendations to promote uniformity in the supervision of
                            financial institutions.




                                             19
                                        GLOSSARY

           Term                                             Definition

                              Generally Accepted Accounting Principles (GAAP) is the body of
                              principles governing the accounting for financial transactions and
                              preparation of financial statements. GAAP is derived from guidance
Generally Accepted
                              issued by the Financial Accounting Standards Board and the
Accounting Principles
                              American Institute of Certified Public Accountants in the form of
(GAAP)
                              Accounting Research Bulletins, Accounting Principles Board
                              Opinions, FASB Statements of Financial Accounting Standards, and
                              FASB Statements of Financial Accounting Concepts.


                              Generally Accepted Auditing Standards (GAAS) are policies,
Generally Accepted Auditing   guidelines, and procedures set forth by the AICPA that an auditor is
Standards (GAAS)              required to follow in performing an audit in order to render an
                              opinion on an organization's financial statements.


Insured Depository            The term insured depository institution means any bank or savings
Institution                   association, the deposits of which are insured by the FDIC.


                              Internal control is an integral component of an organization’s
                              management that provides reasonable assurance of achieving
Internal Control
                              effectiveness and efficiency of operations, reliability of financial
                              reporting, and compliance with applicable laws and regulations.


                              Auditors are required to inform the audit committee (or its
                              equivalent) about significant deficiencies in the design or operation
Management Letters
                              of the internal control structure that come to their attention in the
                              course of an audit. These are referred to as management letters.


                              According to FDIC Regional Directors Memorandum 98-059, issued
                              July 9, 1998, New Examination Guidance and Procedures for
                              Securities and Derivatives Activities, the term “marked-to-market” is
                              the valuation of a security, such as a bond, share, or futures contract,
Marked-to-Market
                              according to current market prices. These instruments are marked-
                              to-market at the end of each trading day, or on an intra-day basis, by
                              the exchange clearinghouse. Position value changes are settled on a
                              cash basis at least daily.




                                               20
                                  GLOSSARY

           Term                                      Definition

                        Non-audit services, according to the Sarbanes-Oxley Act of 2002,
                        are any professional services provided to a securities issuer by a
Non-Audit Services      registered public accounting firm, other than those provided to an
                        issuer in connection with an audit or a review of the financial
                        statements of an issuer.


                        Bank supervisors use on-site and off-site surveillance to identify
                        banks likely to fail. The most useful tool for identifying problem
                        institutions is on-site examination, in which the examiners travel to a
                        bank and review all aspects of its safety and soundness. On-site
                        examination is, however, both costly and burdensome to supervisors
                        because of its labor-intensive nature and burdensome to bankers
                        because of the intrusion into day-to-day operations. As a result,
On-Site and             supervisors also monitor a bank’s condition off-site.
Off-Site Surveillance
                        Off-site surveillance yields an ongoing picture of a bank’s condition,
                        enabling supervisors to schedule and plan exams efficiently. Off-site
                        surveillance also provides banks with incentives to maintain safety
                        and soundness between on-site visits. The FDIC’s off-site
                        monitoring systems (Statistical CAMELS Offsite Rating, Real Estate
                        Stress Test, and Quarterly Lending Alert) are largely based on Call
                        Report data.


                        Peer review is the process by which other accountants assess and test
                        compliance with quality control systems for the accounting and
                        auditing practices of U.S. Securities and Exchange Commission
                        (SEC) Practice Section (SECPS) members. The objectives of peer
                        review are to determine whether the reviewed firm: (1) designed its
Peer Review and         system to meet Quality Control Standards established by the
Peer Review Report      American Institute of Certified Public Accountants; (2) complied
                        with its quality control system to provide reasonable assurance of
                        complying with professional standards; and (3) complied with
                        SECPS membership requirements. Upon the completion of a review,
                        the peer reviewer prepares a report and a letter of comments, which
                        may recommend improvements to the firm's system of compliance.




                                         21
                                      GLOSSARY

           Term                                           Definition

                            The institution’s charter determines which federal banking agency is
                            the “primary federal regulator” of the particular institution. There
                            are four federal regulators of banks and savings and loan institutions:

                            •   Federal Deposit Insurance Corporation (FDIC) - Primary federal
                                regulator responsible for state-chartered banks not members of
                                the Federal Reserve System and state chartered savings banks.
                            •   Federal Reserve Board (FRB) - Primary federal regulator
Primary Federal Regulator       responsible for state-chartered commercial bank members of the
                                Federal Reserve System.
                            •   Office of the Comptroller of the Currency (OCC) - Primary
                                federal regulator responsible for nationally chartered commercial
                                banks.
                            •   Office of Thrift Supervision (OTS) - Primary federal regulator
                                responsible for federally chartered savings and loan associations,
                                federal savings banks, and state-chartered savings and loan
                                associations.


                            A qualified opinion states that, except for the effects of the matter to
                            which the qualification relates, the financial statements present
Qualified Opinion           fairly, in all material respects, the financial position, results of
                            operations, and cash flows in conformity with generally accepted
                            accounting principles.


                            The term “registered public accounting firm” means a public
                            accounting firm registered with the Public Company Accounting
                            Oversight Board in accordance with the Sarbanes-Oxley Act of
                            2002. The term “public accounting firm” means a proprietorship,
                            partnership, incorporated association, corporation, limited liability
                            company, limited liability partnership, or other legal entity that is
                            engaged in the practice of public accounting or preparing or issuing
Registered Public           audit reports; and to the extent so designated by the rules of the
Accounting Firm             Board, any associated person of any such entity.

                            Enactment of the Sarbanes-Oxley Act of 2002, changed the term
                            used to describe accountants in the Securities Exchange Act of 1934.
                            Section 10A of the Securities Exchange Act of 1934
                            (15 U.S.C. 78j-1) was amended by the Sarbanes-Oxley Act of 2002
                            by striking “an independent public accountant” each place that term
                            appears and inserting “a registered public accounting firm.”




                                             22
                                         GLOSSARY

            Term                                             Definition

                               The risk-focused examination process attempts to assess an
                               institution's risk by evaluating its processes to identify, measure,
Risk-Focused Examination       monitor, and control risk. The risk-focused examination process
Process                        seeks to strike an appropriate balance between evaluating the
                               condition of an institution at a certain point in time and evaluating
                               the soundness of the institution's processes for managing risk.


                               These periodic, on-premise examinations help assess an institution's
                               financial condition, policies and procedures, and adherence to laws
Safety and Soundness
                               and regulations. These examinations are a vital tool in protecting the
Examinations
                               financial integrity of the deposit insurance funds and promoting the
                               public confidence in the banking system and individual banks.


                               Call Reports from banks and Thrift Financial Reports from savings
                               associations are sworn statements of financial condition that are
Thrift Financial Reports and   submitted to the FDIC quarterly in accordance with federal
Call Reports                   regulatory requirements. They consist of a balance sheet, income
                               statement, and other supplemental information and provide detailed
                               analyses of balances and related activity.


                               12 U.S.C. § 1841(I) defines a “thrift institution” as: (a) a domestic
                               building and loan or savings and loan association, (b) non-profit
Thrift Institution
                               cooperative bank without capital stock, (c) a federal savings bank, or
                               (d) a registered state-chartered savings bank and holding company.


                               Generally, an unsafe or unsound practice is any action or lack of
                               action that is contrary to generally accepted standards of prudent
Unsafe or Unsound Practice     operation, the possible consequences of which, if continued, would
                               be abnormal risk of loss or damage to an institution, its shareholders,
                               or the agencies administrating the insurance funds.




                                                23
                                                                                   APPENDIX I


OBJECTIVE, SCOPE, AND METHODOLOGY

The overall objective was to evaluate FDIC examiner use of work performed by IPAs who are
engaged by FDIC-supervised financial institutions. In accomplishing our objective, we
reviewed:

•   examination policies and procedures for evaluating the work of IPAs,

•   resolution of differences between regulators and IPAs on matters affecting safety and
    soundness considerations, and

•   followup on IPA findings and recommendations.

To accomplish our audit objective, the OIG interviewed DSC headquarters and Dallas, San
Francisco, Chicago, Memphis, Boston, and New York regional office personnel. We
interviewed selected examiners and supervisory examiners who worked on the examinations we
reviewed. We also reviewed the DSC Manual of Examination Policies, FDIC Case Managers
Procedures Manual, Regional Directors Memoranda, FDIC Financial Institution Letters, and the
Risk Scoping Activities and Reviews of External Auditor Workpaper ED Modules to obtain an
understanding of the policies and procedures that determine the scope and requirements for the
use of and reliance on IPA work. Additionally, we reviewed FDIC compliance with applicable
laws and regulations. Finally, we reviewed current news articles, proposed legislation, and other
agency and regulator reports and related documents to gain an understanding of concerns and
viewpoints of the regulators’ role and responsibilities in working with IPA data and reports.

We reviewed 30 institution examination files along with the related correspondence and
administrative files. Initially, we judgmentally selected 33 examinations from the seven regional
offices based on institution size and geographic location. Based on our initial results for the 30
institutions reviewed, we eliminated the 3 selected institutions in the Atlanta region based on the
consistent facts we found in the other 6 regions. The 33 original examinations were specifically
selected from two groups of institutions. The first selection was of institutions that had an
examination composite CAMELS rating of 4 or 5. Next, we selected institutions that were either
over $500 million in asset size or were between $250 and $500 million. Of the 33 institutions
selected, 1 institution had an examination composite CAMELS rating of 1, 19 were rated 2, 4
were rated 3, 7 were rated 4, and 2 were rated 5. We reviewed the DSC examination
workpapers, the general safety and soundness correspondence/administrative files, IPA audit
reports, and various FDIC and state examination reports. In addition, we reviewed matters
relating to external auditors’ involvement in verifying a financial institution’s call or thrift
financial report data, providing internal audit services, and retaining certain documentation
related to engagements.

From the sample of 30 exams, we also reviewed the pre-examination scope memorandum
comments that related to IPA audit work. This review was essential for developing an
understanding of any risk-scoping or pre-examination planning activities performed by
examiners to risk-focus the examination based on IPA work. For all 30 examinations, we



                                                24
                                                                                APPENDIX I

assessed the extent to which the examiner used the IPA data or reports and how such information
impacted the examination.

The limited nature of the audit objective did not require reviewing related performance measures
under the Government Performance and Results Act, testing for fraud or illegal acts, or
determining the reliability of computer-processed data obtained from the FDIC’s computerized
systems. We gained an understanding of relevant internal control activities by examining DSC’s
applicable policies and procedures as presented in DSC manuals, Regional Directors Memoranda,
and Examination Documentation Modules. We decided not to test internal control activities
because we concluded that the audit objective could be met more efficiently by conducting
substantive tests rather than placing reliance on the internal control system.

We performed fieldwork at the Dallas, San Francisco, Chicago, Memphis, Boston, and New York
regional offices and at 10 field offices within those regions. We reviewed examinations
performed during the period of January 1, 2000 through December 31, 2001. We performed our
audit from April 2002 through January 2003, in accordance with generally accepted government
auditing standards.




                                              25
                                                                                    APPENDIX II


EXAMINER AND CASE MANAGER COMPLIANCE WITH FDIC POLICY

In our review of 30 institutions, we identified three instances where examiners and case
managers did not comply with FDIC policies and procedures. First, a review of an IPA’s
workpapers was not initiated timely because of examiner oversight. Second, case manager files
and examination workpapers contained no evidence that one institution’s Part 363 filing was
reviewed, as a result of confusion during the institution’s merger. Finally, in one instance,
examiners did not follow up on an IPA’s management letter that explained concerns the IPA had
about internal controls at the bank, because of misunderstandings surrounding the institution
changing its IPA. As a result, examiners may not have adequately assessed potential problems
and weak internal controls that may have existed at the three affected institutions. However, we
did not identify any specific negative effect in these instances.

Workpaper Reviews in Downgraded Institutions

Examiners did not initiate a workpaper review timely for one of the three downgraded
institutions in our sample. The examiners had overlooked scheduling a review of the IPA’s
workpapers until they were notified of our visit to the field office in conjunction with this audit.
However, the workpaper review was initiated before the bank’s next scheduled examination.

FDIC Regional Directors Memorandum 2000-055, Reviews of External Auditors’ Workpapers,
issued November 30, 2000, states that when an institution is downgraded to a 4- or 5-rating after
an examination, arrangements should be made to review the IPA’s workpapers (if not already
reviewed) within 3 months of the downgrade unless the downgrade occurs within the last
3 months of the institution’s fiscal year. In that case, the workpaper review should be performed
on that fiscal year’s audit within 3 months after the completion of the audit early the following
year.

Further, according to FDIC Regional Directors Memorandum 2000-019, Reviews of External
Auditors’ Workpapers, dated March 21, 2000, examiners, through the auditors’ workpapers, can
review the external auditor’s evaluation of internal controls, assessment of audit risk in the
institution (including risk of material misstatement of the financial statements due to fraud),
significant account balances and transactions, and other audit areas pertinent to the examination.
A workpaper review is recommended in those circumstances where it will provide the examiner
a better understanding of one or more areas of the bank’s operations and the bases for some of
the auditor’s evaluations in those areas. Thus, a review can be another source of information
about the bank’s internal control and financial reporting practices and about the work that the
auditor has performed in specific audit areas of the bank’s operations or activities. The review
may help determine the scope of the examination procedures that should be carried out. The
review can identify those areas where the independent public accountant performed audit work
sufficient to enable the examination procedures in those areas to be limited, and those areas of
higher risk on which examination procedures should be expanded. However, the sufficiency and
appropriateness of the external auditor’s procedures may be different from the procedures the
examiner would perform during an examination. Reviewing audit workpapers may also acquaint




                                                 26
                                                                                   APPENDIX II

an examiner assigned to an institution for the first time with what the auditor considers to be
audit and internal control risks in that institution.

Examination workpapers revealed that for one of the three downgraded institutions in our
sample, examiners had not initiated a workpaper review as required within 3 months of the
institution being downgraded. In response to notification of this audit, examiners initiated a
review of the IPA's workpapers 9 months after the previous examination. However, because the
rating downgrade occurred within the last 3 months of the institution’s fiscal year, examiners
should have performed a workpaper review within 3 months after the completion of the IPA
audit early the following year.

FDIC examiners completed their examination of the downgraded bank October 17, 2001. The
bank’s fiscal year ended December 31, 2001, and the IPA completed the bank’s audit on
February 14, 2002. Accordingly, a workpaper review should have been initiated within
3 months of February 14, 2002, or by May 14, 2002. However, examiners overlooked
scheduling a review of the IPA’s workpapers. The review was not initiated until June 3, 2002, in
response to our visit to the field office conducting the examination. Nevertheless, the examiner’s
request to review the IPA’s workpapers was only 3 weeks late and the workpaper review was
initiated before the bank’s next scheduled examination.

Review of Part 363 Filings

FDIC case manager files and examiner workpapers for 1 of the 19 Part 363 institutions in our
sample did not contain any evidence of review of required financial statements provided by a
financial institution with more than $500 million in total assets. This situation occurred because
of confusion surrounding the merger of the institution into a larger institution and the subsequent
transfer of files between case managers in different FDIC regional offices. As a result, we could
not determine whether the case managers had fulfilled their responsibility to ensure that the
institution had complied with its Part 363 audit and reporting requirements. However, the bank
had received composite CAMELS ratings of 1 in each annual examination since 1997, and the
bank merged into a 2-rated bank.

Part 363 of the FDIC Rules and Regulations establishes audit and reporting requirements for
insured depository institutions with total assets of $500 million or more and their independent
public accountants. The reports and notifications must be submitted to the FDIC, the appropriate
primary federal regulatory agency, and the appropriate state banking authority.

Under Part 363, management of each institution covered by this regulation must engage a public
accountant, prepare annual financial statements in accordance with GAAP, and produce annual
reports. The independent public accountant engaged by the institution is responsible for auditing
and reporting on the institution's financial statements in accordance with generally accepted
auditing standards, and examining, attesting to, and reporting separately on the assertions of
management concerning the institution's internal control structure and procedures for financial
reporting. Furthermore, Section 13 of the FDIC Case Managers Procedures Manual,




                                                27
                                                                                 APPENDIX II

Part 363 - Annual Audit and Reporting Requirements, states that case managers are responsible
for reviewing Part 363 filings from covered and associated institutions in their caseloads.

However, FDIC case manager files and examiner workpapers for 1 of the 19 Part 363 institutions
in our sample did not indicate that the case manager reviewed and determined whether the
institution fulfilled its audit and reporting requirements. Although examiners in the Dallas field
office examined the bank in question, the responsible case manager resided in the Kansas City
regional office. The bank was then sold to a holding company within the jurisdiction of the
FDIC's San Francisco regional office and is currently overseen by a case manager in the San
Francisco regional office. Followup with the Dallas field office and case managers in both
regional offices determined that none of them had a copy of a Part 363 Worksheet to evidence a
case manager's review. We believe it was either lost during the transfer of files between regional
offices or none was ever completed. As a result, we could not determine whether either of the
FDIC case managers (1) determined whether the institution fulfilled its audit and reporting
requirements, (2) reviewed the institution's Part 363 prior year submission to see if there were
any issues noted, and (3) reviewed the institution’s Part 363 submission for completeness to
ensure it included all required documents.

However, the bank in question merged with another, larger institution effective June 15, 2002.
In addition, the bank had received composite CAMELS ratings of 1 in each annual examination
since 1997.

Followup on Management Letters

In one instance in our sample, examiners did not follow up on an IPA’s management letter that
explained concerns the IPA had about internal controls at the bank. This lack of followup
occurred because of misunderstandings surrounding the institution changing its IPA. The
FDIC’s senior examiner could not explain specifically why examiners had not followed up on
the IPA’s management letter. As a result of not following up on the management letter, possible
internal control weaknesses at the institution, potential problems resulting from those
weaknesses, and bank management's response and actions regarding these problems may not
have been adequately reviewed by examiners at the subsequent examination.

FDIC Regional Directors Memorandum 2000-019, Reviews of External Auditors’ Workpapers,
dated March 21, 2000, states that before or during each examination, examiners should obtain
from management all correspondence between the external auditor and the bank. The
correspondence to be reviewed includes the management letter and any other letters or
documents in which any weaknesses in internal control may be discussed. The examiner should
also review management’s responses and actions planned to alleviate any internal control
weaknesses that were noted by the auditor. For any material weaknesses and reportable
conditions identified by the auditor, the examiner should ensure that management has planned
appropriate corrective actions and determine whether the institution has implemented the actions
planned to correct the deficiencies. If the examiner believes that management’s actions are
inadequate, the examiner should make recommendations for improvement, according to the
Regional Directors Memorandum.



                                               28
                                                                                   APPENDIX II



During our review of a regional case manager’s file, we found an IPA’s management letter that
explained concerns the IPA had about internal controls at the bank. The letter was addressed to the
management and audit committee of the institution. It was also forwarded to the responsible FDIC
regional office where we found it in the case manager’s files. However, we could not find a copy of
the management letter in the field office examination workpapers or any notation as to whether
examiners had followed up on it.

Finding no evidence of followup in the examination workpapers, we asked the FDIC senior examiner
to contact bank management to obtain a copy of management's response to the IPA's management
letter. Bank management advised that they did not respond to the IPA's management letter because
the bank’s audit committee had been in the process of replacing the IPA. The bank had submitted the
required notice alerting federal regulators that the bank had replaced its external auditor.

In addition, the senior examiner contacted one of the examiners who worked on the subsequent
examination and learned that the examiners looked at the successor IPA’s information. The
examination workpapers did contain evidence of the examiner’s review of correspondence
between the new external auditor and the bank. However, no followup was performed to
determine whether bank management had responded to the former IPA’s management letter.
According to the senior examiner, the subsequent examination was conducted jointly with a state
bank regulator, and a state examiner was tasked with evaluating the institution’s external audit
program. The examiner contacted did not have an explanation as to why the state’s examiner did
not follow up on the former IPA’s management letter.

Although examiners should follow up on IPA management letters, we believe this was an isolated
instance, based on the results of our sample. Additionally, the institution involved received
composite 1 CAMELS ratings from 1997 through 2000, and a composite 2 rating at the
conclusion of the 2001 examination conducted by FDIC and the state agency.




                                                29
                                                                                         APPENDIX II


                                                                                          APPENDIX III

Federal Deposit Insurance Act Section 36 – Early Identification of Needed Improvements
in Financial Management for Institutions with More than $500 Million in Total Assets
Section       Section Title                             Summary of Provisions
           Annual Report on      Each insured depository institution is required to submit its audited
  36(a)    Financial Condition   financial statements to the FDIC, the appropriate federal banking
           and Management        agency, and any appropriate state bank supervisor.
                                 Each insured depository institution is required to prepare annual
           Management            financial statements in accordance with generally accepted
           Responsibility for    accounting principles. In addition, the institution must prepare a
 36(b)     Financial             report signed by the chief executive officer and the chief accounting
           Statements and        or financial officer of the institution that contains a statement of
           Internal Controls     management’s responsibilities for and assessment of its internal
                                 controls and compliance with laws and regulations.
           Internal Control
                                 Requires the institution's independent public accountant to attest to,
           Evaluation and
                                 and report on, the assertions of the institution's management
           Reporting
 36(c )                          regarding internal controls. Further, the IPA's attestation must be
           Requirements for
                                 made in accordance with generally accepted standards for attestation
           Independent Public
                                 engagements.
           Accountants
                                 Requires the FDIC to prescribe regulations requiring each insured
                                 depository institution to have an annual independent audit made of
                                 the institution's financial statements by an independent public
           Annual
                                 accountant in accordance with generally accepted auditing standards
           Independent Audits
 36(d)                           and section 37 of the FDI Act. This section also requires the
           of Financial
                                 independent public accountant to determine and report whether the
           Statements
                                 financial statements of the institution are presented fairly in
                                 accordance with generally accepted accounting principles; and to
                                 comply with other disclosure requirements of the FDIC.
           Detecting and
           Reporting
 36(e)                           Repealed.
           Violations of Laws
           and Regulations
                                 Requires the scope of each report by an independent public
           Form and Content
                                 accountant, and the procedures followed in preparing report, to meet
  36(f)    of Reports and
                                 or exceed the scope and procedures required by generally accepted
           Auditing Standards
                                 auditing standards.
                                 Requires each insured depository institution to have an independent
           Improved              audit committee entirely made up of outside directors who are
 36(g)
           Accountability        independent of management of the institution and establishes other
                                 new responsibilities for the committees.
                                 Requires each institution to provide its auditor a copy of its most
           Exchange of           recent report of condition (Call Report or Thrift Financial Report),
 36(h)     Reports and           report of examination, and any supervisory actions. In addition, the
           Information           institution is required to provide its audit reports to the federal
                                 regulators and notify the federal regulators if it changes its auditor.
Source: FDI Act Section 36.




                                                   30
                       APPENDIX III


                        APPENDIX IV
CORPORATION COMMENTS




         31
